CERTIFICATE OF SERVICE

I, Dennis P. Riordan, a member of the Bar of this Court, hereby certify
pursuant to Supreme Court Rule 29.5(b), that on September 3, 2019, one copy of
the APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR
WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT in the above entitled case was mailed to each party
identified below or on that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid.

The name(s) and address(es) of those served are as follows:

Noel J. Francisco

Solicitor General of the United States
Office of the Solicitor General

950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

   

DATED: September 3, 2019
ennis P. Riordan
1611 Telegraph Ave., Ste. 806
Oakland, CA 94612

(415) 431-3475

Counsel of Record For Petitioner
